DOE/IG-0491




  SPECIAL
  REPORT

                                  MANAGEMENT CHALLENGES
                                            AT
                                 THE DEPARTMENT OF ENERGY




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                         November 28, 2000


MEMORANDUM FOR THE SECRETARY


FROM:                 Gregory H. Friedman (Signed)
                      Inspector General


SUBJECT:              INFORMATION: Special Report on "Management Challenges at the
                      Department of Energy"


BACKGROUND

On October 12, 2000, the Chairmen of several committees of the U.S. Congress requested an
assessment by the Office of Inspector General of the most significant management challenges facing
the Department of Energy. We have received similar requests annually since 1997. As in the past,
our response to this year's inquiry parallels the Department's reporting under the Federal Managers'
Financial Integrity Act. The Office of Inspector General has a significant role in the Integrity Act
process, which has traditionally resulted in an effective depiction of long-standing, institution-wide
problems facing the Department of Energy.


RESULTS OF AUDIT

This special report constitutes our response to the congressional inquiry. The analysis is focused on
those Department challenges that, in our view, warrant increased emphasis or appear to have reached
a heightened level of urgency. Throughout our discussion, we have highlighted issues of concern
relative to the newly formed National Nuclear Security Administration (NNSA). The Office of
Inspector General is devoting considerable time and resources to evaluating various aspects of the
NNSA's complex mission and operations.

In addition to issues relating to the creation of NNSA, the most serious challenges facing the
Department today can be categorized as follows:

   •   Contract Administration;
   •   Energy Technology;
   •   Environmental Remediation (including radioactive waste storage);
   •   Human Capital;
   •   Information Technology;
   •   Infrastructure;
   •   Property Controls and Asset Inventories;
   •   Safety and Health; and
   •   Security.
                                                 -2-

Additional details on these challenges are provided in the text of the special report. We believe that
with aggressive management action, a number of these issues can be addressed in the near term.
However, the Department faces challenges in areas such as environmental cleanup; safety and health;
and, contract administration that are, in our judgment, among the most intractable management issues
in the Federal government. The successful resolution of these and similar issues require long-term,
strategic solutions.

The Department has taken a number of positive actions to address some of its long-standing
problems, including several that were reported by this office as management challenges in prior
evaluations requested by Congress. For example, the Department has better integrated its multi-
billion dollar research and development program by establishing comprehensive, cross-cutting
research and development portfolios. Also, the Department's enhanced emphasis on complex-wide
security is evidenced by the recent formation of the Office of Security and Emergency Operations and
by the implementation of many new security policies. Similarly, the Department has acted
aggressively to implement project management reforms, including a new tracking and control system
and a senior level "watch list" for troubled projects. These and other Department accomplishments
are discussed more fully on page 12 of the report.

We look forward to working with the Department's senior staff in a continuing effort to improve
Department programs and operations, particularly as they relate to the management challenge issues.

Please let me know if there are any questions.

Attachment

cc: Deputy Secretary
    Under Secretary for Nuclear Security/Administrator for Nuclear Security
    Under Secretary for Energy, Science and Environment
    Chief Financial Officer
Management Challenges at the Department of Energy



TABLE OF
CONTENTS


                   Overview

                   Introduction………………………………………………….. 1
                   Conclusions and Observations…………………………….. 1


                   Management Challenges
                   at the Department of Energy

                   Challenge Summaries……………………………………… 3
                   Areas of Progress…………………………………………...12


                   Appendices

                   1. Fiscal Year 2000-01 Reports Related to the
                      Department's Management Challenges……….………15
                   2. Significant Open Recommendations……………….…..18
Overview

INTRODUCTION      The Office of Inspector General (OIG) has identified nine issue areas
                  which, in our judgment, represent the most significant challenges facing
                  the Department of Energy (Department). Each challenge area is briefly
                  discussed in this report. Our discussion also highlights issues of
                  concern relative to the newly formed National Nuclear Security
                  Administration (NNSA).

                      •   Contract Administration1;
                      •   Energy Technology;
                      •   Environmental Remediation2 (including radioactive waste
                          storage);
                      •   Human Capital;
                      •   Information Technology;
                      •   Infrastructure;
                      •   Property Controls and Asset Inventories3;
                      •   Safety and Health; and
                      •   Security


CONCLUSIONS AND   The OIG believes that, with aggressive management action, several of
OBSERVATIONS      the issues that we have highlighted can be addressed in the near term.
                  In contrast, however, the Department's environmental remediation
                  program represents one of the largest and most complex public policy
                  issues facing this nation, let alone the Department. The effort to
                  remediate the residual effects of the nuclear weapons program will
                  require decades to complete at an estimated cost of over $200 billion. It
                  is unrealistic to anticipate that a program of this magnitude, one that is
                  burdened with widely acknowledged technical uncertainty, can be
                  removed anytime soon from a list of major Department challenges.
                  Similarly, the Department, as a civilian agency which is one of the
                  largest procurers of goods and services from the private sector, has had
                  a continuing problem with administering the thousands of contract,
                  grant, and other instruments that it uses for this purpose. While there
                  have been concerted efforts at contract reform, recent OIG reports
                  suggest that significant problems still exist. We are, therefore, not
                  optimistic about removing contract administration from the list of
                  challenges in the near future.



                  1
                    Combines Contract Management and Project Management from 1999.
                  2
                   Combines Environmental Compliance and Nuclear Waste Storage and Disposal from
                    1999.
                  3
                    Combines Materials Inventory and Property Controls from 1999.

Page 1                                                     Introduction/Conclusions and
                                                                          Observations
         This report is divided into two sections. The first summarizes our
         observations regarding each management challenge area. We have
         cited recent OIG reviews which illustrate or identify key aspects of the
         challenge issues or specific operations and programs that are not
         achieving their intended results. Consistent with the requirements of
         the Government Performance and Results Act (Results Act), the
         Department should ensure that it has developed and implemented
         performance goals and measures that directly address each of these
         management challenges. Further, actual performance should be
         assessed against the goals and measures and independently validated.

         The final section of our report identifies positive progress the
         Department has made with respect to previously identified management
         challenges. Appendix 1 lists key OIG reports issued during the past
         year, organized by challenge area. Appendix 2 lists significant open
         recommendations on previously issued reports in these areas.



                                               _________(Signed)______
                                               Office of Inspector General




Page 2                                        Conclusions and Observations
Management Challenges at the Department of Energy

Challenge          The following sections briefly summarize our observations regarding the
Summaries          challenge areas.

                                 Issues Relating to the Creation of the NNSA

                   NNSA was established in March 2000 pursuant to Title 32 of the
                   National Defense Authorization Act for Fiscal Year 2000 (Public Law
                   106-65). NNSA is to provide clear and direct lines of accountability and
                   responsibility for the management and operation of the nation's nuclear
                   weapons, naval reactors, and nuclear nonproliferation activities.

                   As with the establishment of any new Government enterprise, especially
                   one with such a significant mission, the NNSA faces a number of
                   challenges associated with creation. Logistical and organizational issues
                   must be resolved; expectations, responsibilities, and authorities must be
                   established; and, human capital issues must be addressed. Further, as
                   envisioned at its creation, the NNSA has a number of major policy issues
                   it must address. As discussed in the following pages, many of those
                   issues - notably contract administration, security, infrastructure, and
                   information technology - will represent management challenges to
                   NNSA as well as to the Department.

                   Over the past several months, the OIG has worked to design a strategy
                   for maximizing the effectiveness of our services relative to NNSA
                   operations.

                                           Contract Administration

                   In its Fiscal Year 1999 Accountability Report, the Department reported
                   that it had reformed its contracting practices, which had been largely
                   unchanged for more than 50 years. The reported reforms included:

                         …aggressively recompeting contracts, tying performance metrics
                         to contractor fees to incentivize improved performance, and
                         shifting risk to contractors in exchange for the opportunity to earn
                         higher fee amounts.

                   Based on our observations and OIG reviews conducted since 1994, we
                   conclude that many of the Department's contract reform goals have yet to
                   be achieved. For example, while incentives have been included in most
                   Department contracts, OIG reviews have disclosed systemic weaknesses
                   in the way these incentives have been administered. Further, while fees
                   have, in fact, risen dramatically, OIG reviews have repeatedly disclosed
                   that there has not been a commensurate increase in financial risk to the
                   Department's major contractors.
Page 3                                                        Management Challenges
         Ongoing OIG reviews have disclosed continuing problems associated
         with performance-based incentives and fees at major Department
         contractor locations. In the next few weeks, the OIG will issue a series
         of follow-up reports dealing with these issues.

         During the past year, the OIG also disclosed instances where certain
         contracting practices did not appear to be in the Government's best
         interests. For example, our audit of The Department's Management and
         Operating Contractor Make-or-Buy Program (DOE/IG-0460, February
         2000, http://www.ig.doe.gov/pdf/ig-0460.pdf) disclosed that the
         Department could save over $5 million if it more thoroughly evaluated
         make-or-buy decisions using cost-benefit analyses. Our report on
         Charitable Giving Requirements in Department of Energy Contracts
         (HQ-L-00-01, March 2000, http://www.ig.doe.gov/pdf/hql0001.pdf)
         noted that several facilities' management contracts included clauses
         requiring charitable giving by contractors. Additionally, our report on
         Polling by Lawrence Livermore National Laboratory (HQ-L-00-02,
         July 2000, http://www.ig.doe.gov/pdf/hql0002.pdf) disclosed that
         Livermore contracted for a poll to gauge public awareness and
         impressions of the lab with respect to unfavorable press coverage.

         In our judgment, improvement in contracting practices represents one
         of the greatest opportunities for enhancing the economy and efficiency
         of Departmental operations. Of the Department's total budget of $18.9
         billion, over $13 billion is spent by its major contractors. The Office of
         Management and Budget has included "improving the DOE's program
         and contract management" as one of its 12 agency-specific priority
         management objectives for Fiscal Year 2001.

         In previous years, the OIG reported project management as a separate
         challenge area. However, the Department's contractors carry out the
         vast majority of its large construction, scientific, and engineering
         projects. Project management is, therefore, an integral part of contract
         administration and we have chosen to portray them together in our
         current analysis. The Department has experienced difficulties in
         managing some of its major projects. Cost overruns, schedule delays,
         and other management problems have plagued Department projects,
         most recently the $1 billion National Ignition Facility. Since the early
         1990s, the Office of Inspector General has issued many reports critical
         of the Department's planning, justification, and management of its
         major projects.




Page 4                                               Management Challenges
                                    Energy Technology

         In a 1997 report, the Energy Research and Development Panel of the
         President's Committee of Advisors on Science and Technology noted
         that the nation's economic well-being depends on reliable, affordable
         supplies of energy. The Panel further commented that "…our national
         security requires secure supplies of oil or alternatives to it…" and that,
         as a consequence, the United States must maintain its leadership in the
         science and technology of energy supply and use.

         Recent worldwide events, coupled with this year's dramatic spike in oil
         prices, have led to a renewed national focus on the significance of oil
         imports and the technology that can mitigate energy dependency.
         Currently, the United States relies on petroleum for about 40 percent of
         its energy supply, and 51 percent of this petroleum is imported.
         Increasing energy demands for transportation, as well as for other
         sectors of our economy, are likely to exacerbate this situation. For
         example, the Department projects that U.S. oil imports will increase
         from 51 percent in 1999 to 64 percent in 2020.

         In light of the implications for our economic and national security, the
         Department should, in our judgment, intensify its efforts in the
         following areas:

            •   Availability of competitively-priced oil and natural gas supplies;
            •   Efficiency and productivity of energy-intensive industries; and,
            •   Development and use of advanced transportation vehicles and
                alternative fuels.

         During the coming year, the OIG intends to initiate a series of audits on
         different aspects of the Department's energy technology activities,
         including alternative transportation fuels.

                                Environmental Remediation

         The Department's effort to address the environmental consequences of
         its nuclear weapons mission has been recognized as the largest
         remediation program of its kind ever undertaken. The Department
         reports that it is responsible for cleaning up 113 geographic sites
         located in 30 states and one territory. Sites range in size from as small
         as a football field to larger than the state of Rhode Island. Cleaning up
         the entire nuclear weapons legacy will take several decades and,
         according to the Department's most recent estimate, cost about $230
         billion. The magnitude of the cleanup effort, along with its technical

Page 5                                                Management Challenges
         complexities and uncertainties, ensures that it will remain a
         Departmental challenge for the foreseeable future.

         The Department has made progress in defining the cleanup effort,
         estimating its scope, and prioritizing individual projects. However,
         OIG reviews over the past year have illustrated several examples of the
         need for increased management attention to achieving intended
         environmental cleanup outcomes. For example, our audit of The
         Management of Tank Waste Remediation at the Hanford Site (DOE/IG-
         0456, January 2000, http://www.ig.doe.gov/pdf/ig-0456.pdf) showed
         that this $47 billion project did not have a completed baseline, critical
         path, or comprehensive project management plan despite similar OIG
         findings dating to 1993. During another audit, Decontamination and
         Decommissioning Contract at the East Tennessee Technology Park
         (DOE/IG-0481, September 2000, http://www.ig.doe.gov/pdf/ig-0481.
         pdf) we found that the decontamination of three buildings at that site
         was two years behind schedule and $94 million over budget.

                                      Human Capital

         Since 1995, the Department has reduced Federal staff from 13,640 to
         10,027 through reductions in force, buyouts, and attrition during a
         hiring moratorium to meet lowered budget estimates. During this
         period, the average age of employees in the Department has increased
         from 44 to 48. The fraction of staff eligible for retirement has increased
         from 6 percent to 11 percent in the last 5 years and will increase to 34
         percent in the next 5 years. Separations exceed hires by almost 3 to 1.

         Some of the Department's major contractors have experienced similar
         losses. For example, at Lawrence Livermore National Laboratory,
         three times as many scientists left the laboratory in the first eight
         months of 2000 as in all of 1999. A senior Department official recently
         testified before Congress that in 10 years, most of our weapons
         designers with nuclear testing experience will have retired. Many of
         those retiring or resigning take with them technical and scientific
         knowledge that is not easily replaced. For example, when the
         Department's newest system, the W88, reaches the end of its original
         design life in 2014, we may no longer have anyone with test-based job
         experience to help evaluate modifications that may be required.

         The OIG has been monitoring this issue through our role in the FMFIA
         process and other audit work. For example, in our 1998 report on The
         U.S. Department of Energy's Efforts to Preserve the Knowledge Base
         Needed to Operate a Downsized Nuclear Weapons Complex (DOE/IG-
         0428, October 1998, http://www.ig.doe.gov/pdf/ig-0428.pdf) we
Page 6                                               Management Challenges
         recommended that, consistent with the Results Act, the Department
         develop and implement a performance plan to preserve the nuclear
         weapons program knowledge base, including capturing information that
         could be provided only by retiring weapons experts. Although that
         recommendation remained open as of September 30, 2000, the
         Department reported to us that it has taken steps to "reinvigorate" its
         knowledge and records management and has developed a
         comprehensive approach to preserving the nuclear weapons program
         knowledge base. While it is evident that management recognizes the
         seriousness of its human capital problem, the need for action to ensure
         that the Department has the technical, scientific, and management
         resources it needs to meet its mission requirements has become critical.
         The OIG has therefore initiated a follow-on review in this area.

                                 Information Technology

         Enacted in 1996, the Clinger-Cohen Act required the Department to
         appoint a Chief Information Officer (CIO). The CIO was vested with
         the responsibility to develop and implement (1) an effective agency-
         wide information technology capital investment strategy, (2) specific
         performance goals and measures, (3) monitoring of and reporting on
         information technology programs, and (4) an integrated information
         technology architecture. Since 1996, the OIG has issued ten audit
         reports identifying problems associated with the Department's
         implementation of Clinger-Cohen and its management of $1.6 billion in
         annual information technology expenditures. Consequently, we are
         working on an overview evaluation of the Department's implementation
         efforts.

         The use of capital planning and investment controls to better manage
         information technology has been identified by the Office of
         Management and Budget as a Government-wide priority management
         objective for Fiscal Year 2001. Two of our most recent reports illustrate
         that the Department does not have an effective investment strategy for
         information technology. In our audit of Corporate and Stand-Alone
         Information Systems Development (DOE/IG-0485, September 2000,
         http://www.ig.doe.gov/pdf/ig-0485.pdf), we found that the Department
         had spent at least $38 million developing duplicative information
         systems. Duplicative systems existed or were under development at
         virtually all organizational levels within the Department. Similarly,
         during our audit of Commercial Off-the-Shelf Software Acquisition
         Framework (DOE/IG-0463, March, 2000, http://www.ig.doe.gov/pdf/
         ig0463.pdf) we found that the Department failed to take advantage of
         enterprise-wide software contracts that could have saved nearly $40
         million on just one of its desktop software suites.

Page 7                                               Management Challenges
         In our audit of The U.S. Department of Energy's Consolidated
         Financial Statements for Fiscal Years 1999 and 1998
         (DOE/IG-FS-00-01, March 2000), we determined that problems
         associated with implementation of a new financial management system
         at the Department's Western Area Power Administration (WAPA)
         constituted a material internal control weakness. Operational
         deficiencies included problems with system functionality and
         performance, data accuracy, security, and reporting. Unfortunately, as
         of November 2000, WAPA was still experiencing delays in the
         preparation of its Fiscal Year 1999 financial information for audit.
         These delays could impact our ongoing audit of the Department's
         Fiscal Year 2000 consolidated financial statements.

         Recent passage of Government Information Security Reform
         (P.L.106-398, subtitle G), with its requirement for an annual
         independent evaluation of the Department's information security
         activities by the OIG, represents a significant additional challenge and
         a major demand on our staffing and budgetary resources. We are
         developing a comprehensive strategy for meeting this new requirement
         in a manner that fully leverages our in-house capabilities, contractor
         resources, and the expertise of other information technology groups
         within the Department. Our Technology Audit Group and Technology
         Crimes Section, both formed in 1999, are working together to
         coordinate this effort.

                                       Infrastructure

         For several years, the OIG has reported that the condition of the
         Department's infrastructure is inadequate and, in fact, is deteriorating
         at an alarming pace. Recent audits in certain areas key to the
         Department's core missions have led us to conclude that the problem
         has become more severe, requiring prompt management attention.

         In its recently revised Strategic Plan, the Department identified six
         objectives for its National Nuclear Security business line. The first
         three deal with the Department's ability to (1) maintain and refurbish
         nuclear weapons; (2) achieve "robust and vital" scientific, engineering,
         and manufacturing capabilities; and, (3) ensure the "vitality and
         readiness" of the national nuclear security enterprise.

         Based on our audit of the Management of the Nuclear Weapons
         Production Infrastructure, (DOE/IG-0484, September 2000,
         http://www.ig.doe.gov/pdf/ig-0484.pdf) we found that some Stockpile
         Stewardship Plan milestones and goals have slipped, restoration costs


Page 8                                                  Management Challenges
         have increased, and future nuclear weapons production work, as
         required by a Presidential Decision Directive, is at risk.
         Knowledgeable Department officials estimate that between $5 billion
         and $8 billion over current budgeted amounts will need to be invested
         to address the deteriorating infrastructure of the weapons production
         plants. The Department and NNSA must swiftly act to counter the
         effects of deferred maintenance to the production infrastructure and the
         loss of certain critical manufacturing capabilities

         Regarding Department-wide infrastructure issues, our audit of
         Implementation of Presidential Decision Directive 63, Critical
         Infrastructure Protection (DOE/IG-0483, September 2000,
         http://www.ig.doe.gov/pdf/ig-0483.pdf) demonstrated that the
         Department had not implemented its Critical Infrastructure Protection
         Plan. As a result, the Department faced increased risk of malicious
         damage to cyber-related critical infrastructure that could adversely
         impact its ability to protect critical assets and deliver essential services.
         We noted that the Department had not developed specific performance
         measures or goals to guide implementation of the Presidential Decision
         Directive.

                          Property Controls and Asset Inventories

         For several years the OIG has been reporting, through the FMFIA
         process, that the Department has extensive inventories of nuclear and
         non-nuclear materials that may no longer be necessary due to mission
         changes. We have been concerned that funds spent to store, secure, and
         handle these materials could be put to better use and that the potential
         exists for safety and health concerns. The OIG has also reported
         significant deficiencies in controls over Government property.

         In January 2000, as part of a larger cost-savings initiative, the Inspector
         General suggested that the Secretary initiate a Department-wide review
         to specifically identify excess or unneeded assets and schedule for their
         disposal at the earliest possible time. Based in part on the OIG
         recommendation, the Secretary announced, in March 2000, a
         Departmental initiative to "clean out the attic" of unneeded, unused
         property. Since March, Department managers have been working to
         deploy a number of new processes, including on-line auctions, to deal
         with this issue. The "clean out the attic" initiative is still ongoing.

         While the Department deserves credit for its attention to this long-
         standing problem, recent OIG reviews raised new concerns about the
         adequacy of controls over property. Our audit of Non-Nuclear
         Weapons Parts at the Rocky Flats Environmental Technology Site
Page 9                                                  Management Challenges
          (DOE/IG-0475, June 2000, http://www.ig.doe.gov/pdf/ig-0475.pdf),
          disclosed that Rocky Flats (1) could not account for its weapons parts,
          (2) did not maintain accurate inventory records, and (3) could not
          accurately report the value of its non-nuclear parts inventory on the
          Department's financial statements. In our Inspection of Surplus
          Computer Equipment Management at the Savannah River Site (DOE/
          IG-0472, June 2000, http://www.ig.doe.gov/pdf/ig-0472.pdf) we
          determined that a contractor did not comply with property management
          requirements for disposal of surplus computer equipment. Stored
          information, including Unclassified Controlled Nuclear Information,
          was not cleared from all surplus computers.

                                      Safety and Health

          Ensuring the safety and health of its workforce and the public is one of
          the Department's most difficult, long-term challenges. Safety and
          health issues encompass all activities relating to the identification,
          testing, handling, labeling, cleanup, storage, and/or disposal of
          radioactive and hazardous waste. Other activities relate to nuclear
          safety and occupational and worker safety and health (e.g., nuclear
          safety standards).

          As with the Environmental Remediation challenge, the OIG does not
          expect that the Department will resolve these complex issues in the near
          term. Rather, Department managers should take aggressive action to
          ensure that safety and health activities are carried out as efficiently and
          effectively as possible. Several OIG reviews completed during the past
          year showed that this was not always the case.

          Our audit of In-Vitro Bioassay Services at Department of Energy
          Facilities (DOE/IG-0458, February 2000, http://www.ig.doe.gov/pdf/
          ig0458.pdf), for example, disclosed that certain contractors ignored
          available Department-wide subcontracts for bioassay analyses. Instead,
          the contractors issued their own subcontracts at substantially higher
          rates. During our audit of the Federal Energy Regulatory Commission's
          Dam Safety Program (DOE/IG-0486, October 2000, http://www.ig.doe.
          gov/pdf/ig-0486.pdf), we concluded that, overall, the Commission
          conducted a thorough and comprehensive dam safety program.
          However, management inefficiencies led to a backlog of safety reports
          needing review. As a result, the Commission did not have complete,
          timely, and important information about the safety condition of some
          dams under its jurisdiction.

          The OIG also received allegations of criminal misconduct regarding
          safety and health issues. For example, we received information that one

Page 10                                                Management Challenges
          of the Department's subcontractors was mixing hazardous materials
          with non-hazardous/non-regulated paint waste material. After an
          extensive investigation, the subcontractor was sentenced to three years
          probation and fined for the treatment of hazardous waste without a
          permit and for transportation of hazardous waste without a manifest.

                                          Security

          One of the objectives of the Department's National Nuclear Security
          business line is ensuring that the Department's "…nuclear weapons,
          materials, facilities, and information assets are secure through effective
          safeguards and security policy, implementation, and oversight." The
          Department spends over $1 billion per year for physical and personnel
          security. This includes NNSA and other Departmental sites. Previous
          reviews by the OIG, Congress, and others have identified weaknesses
          in the Department's protection of nuclear weapons-related information.
          Lapses in security were frequently cited during the debate leading to
          NNSA's creation. In 1999, the OIG designated Security as an emphasis
          area and initiated a number of reviews aimed at assisting the
          Department in focusing on areas of particular concern. The results of
          these reviews indicated that improvements in security operations are
          still needed.

          Our report on Inspection of Allegations Relating to the Albuquerque
          Operations Office Security Survey Process and the Security Operations'
          Self-Assessment at Los Alamos National Laboratory (DOE/IG-0471,
          May 2000, http://www.ig.doe.gov/pdf/ig-0471.pdf) showed that certain
          security survey ratings were changed without a documented rationale.
          This inspection also disclosed that about 30 percent of the Los Alamos
          security operations division personnel we interviewed believed they
          had been pressured to change or mitigate security self-assessments.
          Another inspection addressed Allegations Concerning the Department
          of Energy's Site Safeguards and Security Planning Process (DOE/IG-
          0482, September 2000, http://www.ig.doe.gov/pdf/sssp.pdf), where we
          identified significant problems in the manner in which site safeguards
          and security plans were reviewed and quality assurance issues were
          closed.

          Our reviews have also identified security weaknesses relating to
          information technology. In our audit of Unclassified Network Security
          at Selected Field Sites, (DOE/OIG-0459, February 2000, http://www.ig.
          doe.gov/pdf/ig0459.pdf), the OIG identified, at all six sites we visited,
          significant weaknesses that increased the risk that unclassified
          computer networks could be damaged by malicious attack. Even


Page 11                                                Management Challenges
                    though the Department became aware of a number of network
                    security problems in recent years, it did not, until recently, issue
                    specific network security requirements. An Inspection of the Sale of
                    a Paragon Supercomputer by Sandia National Laboratories (DOE/
                    IG-0455, December 1999, http://www.ig.doe.gov/pdf/Paragonf.pdf)
                    determined that Sandia failed to exercise prudent management
                    judgment in its decision to excess and sell a supercomputer to a
                    Chinese national. The supercomputer was one of the world's 100
                    fastest computers and had been used by Sandia to support the
                    Department's nuclear weapons testing program. As noted previously,
                    our inspection dealing with computer equipment at Savannah River
                    (DOE/IG-0472) disclosed that management at that site did not assure
                    that surplus computers were sanitized prior to disposal.


Areas of Progress   The Department has taken steps to address a number of previously
                    reported problems. Specifically, Department managers have
                    implemented OIG recommendations or otherwise improved processes
                    related to:

                           •   Integrating research and development activities;
                           •   Increasing emphasis on security;
                           •   Commencing operations at the Waste Isolation Pilot Plant
                               (WIPP);
                           •   Enhancing project management;
                           •   Improving financial reporting on environmental liabilities;
                               and,
                           •   Correcting the Year 2000 computer problem.

                    As this list illustrates, progress has been made in areas representing
                    significant complexity. The improvements came about as a result of
                    strategic planning and goal-setting, management commitment, and
                    the concerted efforts of many Department and contractor personnel.

                                    Research and Development Portfolios

                    The Department undertook a major effort to coordinate its research
                    and development activities. In a 1998 audit report on The U.S.
                    Department of Energy's Management of Research and Development
                    Integration (DOE/IG-0417, March 1998, http://www.ig.doe.gov/pdf/
                    ig-0417.pdf), the OIG recommended that the Department better
                    integrate its $6 billion annual research and development program to
                    assure maximum benefit to taxpayers and to minimize the possibility


 Page 12                                                        Management Challenges/
                                                                      Areas of Progress
          that research would be unnecessarily duplicated. The Under Secretary
          for Energy, Science, and Environment led the Department's effort to
          fully catalog its research program and to coordinate research across
          programmatic lines. This effort resulted in the publication of a series of
          comprehensive research and development "portfolios." In a January
          2000 letter to the Secretary, the Inspector General suggested that the
          Under Secretary's approach to research and development be adopted for
          other cross-cutting programs and initiatives throughout the Department.

                                   Security Improvements

          The Department has re-emphasized the importance of strong security
          throughout the complex. The Office of Security and Emergency
          Operations has developed and implemented over two dozen new
          security policies and directives. Our observations at several locations
          suggest that there is a heightened awareness of the Department's
          security needs. Despite this positive progress, however, security
          remains one of the most difficult challenges facing the Department and
          the NNSA.

                                      WIPP Operations

          After more than 20 years of scientific study, public input, and
          regulatory struggles, WIPP began operations in March 1999. Located
          in Southeastern New Mexico, WIPP is the world's first underground
          repository licensed to safely and permanently dispose of transuranic
          radioactive waste left from the research and production of nuclear
          weapons. As of October 2000, WIPP had received 100 shipments of
          waste from Rocky Flats, the Idaho National Engineering and
          Environmental Laboratory, Los Alamos National Laboratory, and
          Hanford. Over the expected 35-year operating life of WIPP, the
          Department plans to transport 37,000 loads of transuranic waste from
          23 locations nationwide.

                               Project Management Initiatives

          The Department recently implemented a series of reforms, including a
          new project management tracking and control system, a Chief
          Operating Officer's "Watch List" for troubled projects, and a new
          project management organization within the Office of Chief Financial
          Officer. While we are encouraged at these steps, the OIG believes that
          project management – which we include as part of contract
          administration for this report – remains one of the Department's key
          challenges.

Page 13                                                       Areas of Progress
                                  Financial Management

          In 1999, we reported a material internal control weakness in the
          Department's estimating process for environmental liabilities.
          However, in our audit of The U.S. Department of Energy's
          Consolidated Financial Statements for Fiscal Years 1999 and 1998
          (DOE/IG-FS-00-01, March 2000) we reported that management had
          addressed the internal control weakness by developing a documented,
          complete, and updated estimate.

          Also as part of the financial statement audit, we reported that the
          Department's financial management systems were in substantial
          compliance with requirements of the Federal Financial Management
          Improvement Act of 1996. The Department is one of only three
          agencies found to be in substantial compliance.

                                        Year 2000

          The Department successfully negotiated the Year 2000 date change,
          experiencing only minimal problems with its information systems. The
          Chief Information Officer's staff coordinated the Department's review
          of more than 400 mission-critical systems, ensuring those systems had
          been upgraded or replaced, tested, and independently validated as Year
          2000 compliant. The Department responded quickly and decisively to
          address a number of related issues raised by the OIG.




Page 14                                                     Areas of Progress
                                                                          Appendix 1

             FY 2000-01 REPORTS RELATING TO THE DEPARTMENT'S
                       MANAGEMENT CHALLENGES

                  ISSUES RELATING TO THE CREATION OF NNSA
   Ongoing        National Nuclear Security Administration's Surveillance and Dual
                  Revalidation Program
   Ongoing        ATLAS Pulse Power Experimental Facility
   Ongoing        Weapon Related Container Development
   Ongoing        Utilization of High Explosive Facilities
   Planned        Initial Evaluation of NNSA Activities

                  CONTRACT ADMINISTRATION
   DOE/IG-0479    Management of Patent and Licensing Activities at Department-owned
                  Contractor-operated Laboratories
   DOE/IG-0460    The Department's Management and Operating Contractor Make-or-Buy
                  Program
   WR-B-00-03     Outsourcing Opportunities at the Los Alamos National Laboratory
   Ongoing        Management and Integrating Contractor Fees
   Ongoing        Performance Based Contractor Practices
   Ongoing        IT Support Service Contracts
   Ongoing        DOE Nuclear Material Stabilization Program
   Ongoing        Office of River Protection -- Performance Measures
   Ongoing        LLNL -- Procurement Card Practices

                  ENERGY TECHNOLOGY
   DOE/IG-0467    U.S. Department of Energy's Global Climate Change Activities
   Ongoing        Super Energy Savings
   Planned        Alternative Fuels

                  ENVIRONMENTAL REMEDIATION (including radioactive waste storage)
   DOE/IG-0481    Decontamination and Decommissioning Contract at the East Tennessee
                  Technology Park
   DOE/IG-0476    Best Practices for Environmental Baseline Development
   DOE/IG-0461    Groundwater Monitoring Activities at Department of Energy Facilities
   DOE/IG-0462    National Low-Level Waste Management Program
   DOE/IG-0456    The Management of Tank Waste Remediation at the Hanford Site
   DOE/IG-0454    Waste Incineration at the Idaho Engineering and Environmental Laboratory




Page 15
   DOE/IG-0453    Waste Incineration at the Savannah River Site
   Ongoing        Americium/Curium Vitrification
   Ongoing        Remediation and Closure of Miamisburg Environmental Management Project
   Ongoing        Idaho National Engineering & Environmental Lab's Tru Waste Program
   Ongoing        Intersite Waste Transfer Program
   Ongoing        Privatization of Cleanup Contracts

                  HUMAN CAPITAL
   Ongoing        Recruitment and Retention
   Ongoing        Reliance on Contractors

                  INFORMATION TECHNOLOGY
   DOE/IG-0485    Corporate and Stand-Alone Information System Development
   DOE/IG-0483*   Implementation of PDD 63, Critical Infrastructure Protection
   DOE/IG-0466    Implementation of Integrated Business Information Systems within the
                  Department of Energy
   DOE/IG-0463    Commercial Off-the-Shelf Software Acquisition Framework
   DOE/IG-0459*   Unclassified Computer Network Security at Selected Field Sites
   Ongoing        Corporate Human Resource Information System
   Ongoing        Integrated Planning and Budgeting System -- Information System
   Ongoing        Cybersecurity of Privacy Act Information

                  INFRASTRUCTURE
   DOE/IG-0484    Management of the Nuclear Weapons Production Infrastructure
   DOE/IG-0483*   Implementation of PDD 63, Critical Infrastructure Protection
   Ongoing        Facility Maintenance at the INEEL

                  PROPERTY CONTROLS AND ASSET INVENTORIES
   DOE/IG-0475    Non-nuclear Weapons Parts at the Rocky Flats Environmental Technology
                  Site
   DOE/IG-0472    Inspection of Surplus Computer Equipment Management at the Savannah
                  River Site
   DOE/IG-0468    Facilities Information Management System
   DOE/IG-0455*   Sale of a Paragon Supercomputer by Sandia National Laboratory
   Ongoing        BPA Property Control Issue
   Ongoing        ORO -- Property Transfer Under CRADA
   Ongoing        LLNL Excess Personal Property Management
   Ongoing        ORO -- Management of Personal Property




Page 16
                SAFETY AND HEALTH
 IG-0486        Federal Energy Regulatory Commission's Dam Safety Program
 IG-0458        In-Vitro Bioassay Services at Department of Energy Facilities
 S00IS010       Management Alert on Inspection of "Chem-Bio" Safety Protocols at DOE
                (Sandia)
 INS-0-00-01    Inspection of Selected Issues of the Chem-Bio Facility at the Oak Ridge
                National Laboratory
 S99IS040       Management Alert on Inspection of "Chem-Bio" Safety Protocols at DOE
                (INEEL)
 Ongoing        Inspection of Department of Energy Activities Involving Biological Select
                Agents
 Ongoing        Nuclear Transportation Safeguards
 Planned        Safety Management at the Savannah River Site
 Planned        Integrated Safety Management Program at Oak Ridge
 Planned        Integrated Safety Management Program at LLNL
 Planned        Illness and Injury Reporting at Rocky Flats

                SECURITY
 DOE/IG-0488    Inspection of Selected Aspects of the Department of Energy's Classified
                Document Transmittal Process
 DOE/IG-0482    Summary Report on Allegations Concerning the Department of Energy's Site
                Safeguards and Security Planning Process
  DOE/IG-0471   Inspection of Allegations Relating to the Albuquerque Operations Office
                Security Survey Process and the Security Operations' Self-Assessments at Los
                Alamos National Laboratory
 DOE/IG-0464    Follow-on Review of the Status of the U.S. Department of Energy's
                Counterintelligence Implementation Plan
 DOE/IG-0459*   Unclassified Computer Network Security at Selected Field Sites
 DOE/IG-0455*   Sale of a Paragon Supercomputer by Sandia National Laboratory
 Ongoing        NNSA Surveillance and Dual Revalidation
 Ongoing        Protective Force/OTS Firearms
 Ongoing        Computer Incident Reporting




Page 17
                                                                                       Appendix 2
                        SIGNIFICANT OPEN RECOMMENDATIONS


Contract Administration

• Determine what alternatives are available to resolve conflicting statutes relating to competition with the
   private sector; seek clarification or legislative resolution to the non-competition versus competition
   dichotomy; develop a methodology for communicating technology transfer procedures and practices to
   stakeholders. (IG-0479)

• Develop program specific guidance for evaluating contractor functions and monitor field
   implementation of contractor make-or-buy efforts. (IG-0460)

• Include bioassay services in make-or-buy plans; maintain cost records sufficient to determine whether
   bioassay services should be performed in-house or subcontracted out; and establish a standard schedule
   of cost elements to use in comparing the cost of performing bioassay services in-house against the cost
   of subcontracting for bioassay services. (IG-0458)

• Take aggressive action to control the excessive cost of Architectural and Engineering services; award
   contracts for architectural and engineering services, competitively based on technical competence and
   price. (IG-0424)

• Adopt processes and procedures to collect and validate the estimated and actual cost information used
   as a basis for performance measurement. (IG-0439)


Environmental Remediation

• Ensure that personnel performing metal surveys at the East Tennessee Technology Park are adequately
   supervised, and monitor the quality of surveys performed. (IG-0481)

• Designate a Headquarters office to be responsible and accountable for groundwater monitoring
   activities; accumulate information on well installation, sampling techniques and frequency, and
   laboratory analysis costs; and expedite the integration of groundwater monitoring activities. (IG-0461)

• Complete development and implementation of the integrated project baseline (River Protection Project);
   re-evaluate the risk of proceeding into construction of the vitrification facilities at Hanford without
   complete design; and fill critical contract administration vacancies. (IG-0456)

• Reduce the amount of downtime between incineration campaigns; sort, segregate, and characterize the
   inventory of mixed waste; and close the Waste Experimental Reduction Facility Incinerator as soon as
   other treatment options are in place. (IG-0454)




Page 18
• Use two blend tanks to prepare and feed PUREX into the incinerator and increase feed rate for solid
   waste. (IG-0453)

• Characterize the inventory of incinerable waste as soon as possible to facilitate preparation of a burn
   plan that will allow the Toxic Substance Control Act Incinerator to operate more efficiently; and close
   the incinerator as soon as other treatment options are in place. (IG-0451)

• Seek to amend the 1995 interim Record-of-Decision in order to achieve cleanup levels that are
   consistent with land use decisions and challenge future Records of Decision having cleanup objectives
   that are inconsistent with projected land uses. (IG-0446)

• Require Los Alamos to provide actual detailed remediation cost data on a site-by-site basis. (IG-0410)


Human Capital

• Develop and implement a performance plan for knowledge preservation activities and for integrating
   site activities throughout the Department for the nuclear weapons complex. (IG-0428)


Information Technology

• Adhere to the provisions of the Department's information technology architecture; reduce the approval
   threshold for major IT investments; consolidate development activities; increase control over potentially
   duplicative efforts by developing an accurate and complete system inventory; and maintain accurate
   data on information system lifecycle development and maintenance costs. (IG-0485)

• Perform a feasibility study to determine whether an integrated business information system should be
   implemented; establish performance measures to assess progress; develop a detailed project plan; and
   assign a project manager with overall responsibility for the project. (IG-0466)

• Develop and implement mandatory Department-wide standards governing the acquisition of computer
   software and negotiate and award Department-wide commercial-off-the-shelf software contracts that
   include enterprise-wide deployment based on the standards. (IG-0463)


Infrastructure

• Establish an overall science and production focal point in the NNSA; update all budget-planning
   assumptions; conduct condition assessment surveys at all production plants and laboratories; prepare
   Ten-Year Site Plans at each production facility; establish consistent performance measures for
   infrastructure maintenance; and develop a contingency plan prioritizing infrastructure activities.
   (IG-0484)




Page 19
• Revise the Department's Critical Infrastructure Protection Plan to include expert review team comments
   and new implementation milestones; prepare a detailed, comprehensive resource plan for all critical
   infrastructure protection efforts; reallocate budgetary resources; and establish specific critical
   infrastructure protection performance measures. (IG-0483)


Property Controls and Asset Inventories


• Establish controls to ensure that the contractor at Rocky Flats Technology Site identifies and screens
   weapons parts prior to disposal; forwards weapons parts to sites where they are needed; controls
   accountable weapons parts; and documents the weapons parts shipped offsite. (IG-0475)

• Strengthen the collection and management of real property information; include the users of the real
   property information in the process; and coordinate changes with the Department's Information
   Technology Architecture. (IG-0468)

• Dispose of all materials determined to be excess and, where appropriate, make these items available for
   sale to others; fully implement the inventory management plans at the Kansas City Area Office and
   Kansas City Plant. (IG-0450)

• Limit leased space to minimum amount necessary to perform the Department's mission; develop
   comprehensive site development plans for all geographic locations, including Headquarters; maintain an
   accurate Department-wide database for all leased property; and coordinate all new leasing activity with
   each of the Departmental offices that maintain space in the proposed leasing area. (IG-0402)

• Reevaluate requirements for all Departmental owned or controlled land against current and foreseeable
   requirements and dispose of all non-essential land identified. (IG-0399)


Security

• Ensure that officials of the Department and its contractors are held accountable for management failures
   that result in the improper transmittal of classified material. (IG-0488)

• Resolve to fully implement Departmental Notice 205.1, Unclassified Cyber Security Program; correct
   identified security vulnerabilities; establish specific goals and performance measures for improving the
   level of unclassified computer security relating to network operations. (IG-0459)

• Address weaknesses in Sandia's High-Risk Property Control Process and Sandia's Property
   Management process; develop an opinion on the legality of Department contractors inquiring about the
   possible foreign ownership of companies that bid on excess property. (IG-0455)

• Develop and negotiate with appropriate Russian officials a policy on minimum levels of access to
   facilities and information required before upgrade initiation and for verification of upgrade use after
   installation. (IG-0452)

Page 20
• Improve the Department's export licensing review process and strengthen the Department's deemed
   export licensing process. (IG-0445)

• Complete inventories and measurements of special nuclear materials. (IG-0388)




Page 21
                                                                          Report No. DOE/IG-0491


                                CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers to
the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                        Office of Inspector General (IG-1)
                                           U.S. Department of Energy
                                             Washington, D.C. 20585
                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
